Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Follow-Up Audit of the Medicaid Drug Rebate Program in Texas
August 06, 2008 | Audit A-06-08-00028
Executive Summary
The State agency implemented the recommendations from the prior audit and established controls over collecting rebates for single-source drugs administered by physicians.  Therefore, we do not offer any recommendations.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS